No. ______
In the

Supreme Court of the United States
__________________
BURT W. NEWSOME AND NEWSOME LAW, LLC ,
Petitioners,
v.
CLARK ANDREW COOPER; BALCH & BINGHAM, LLP;
JOHN W. BULLOCK, JR.; CLAIBORNE PORTER SEIER;
AND DON GOTTIER ,
Respondents.
__________________
On Petition for Writ of Certiorari to the
Supreme Court of Alabama

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
ALEXANDRA C. SISKOPOULOS
Counsel of Record
SISKOPOULOS LAW FIRM, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Petitioners

July 17, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Whether a release-dismissal order entered in a
criminal case is enforceable under the standards set
forth in Newton v. Rumery wherein said order
waives a litigant’s right to bring forth both criminal
claims and civil claims against non-governmental
persons and entities.
2. Whether a litigant’s due process rights are violated
when the court gives deferential treatment to an
implicit holding regarding an unfiled order
depriving a litigant of his right to full appellate
review.

ii
LIST OF DIRECTLY RELATED PROCEEDINGS
1. Burt W. Newsome and Newsome Law, LLC v. Clark
Andrew Cooper, Balch & Bingham, LLP, John W.
Bullock, Jr., Claiborne Porter Seier, and Don
Gottier, Circuit Court Case No. CV-2015-900190.00,
Circuit Court of Jefferson County, Alabama
(rendering an order and judgment granting
dismissal of defendant Don Gottier on June 15,
2018; rendering separate orders and judgments to
the remaining defendants granting summary
judgment to each on June 15, 2018; and rendering
an order and judgment of attorneys’ fees on
December 7, 2018).
2. Burt W. Newsome and Newsome Law, LLC v. Clark
Andrew Cooper, Balch & Bingham, LLP, John W.
Bullock, Jr., Claiborne Porter Seier, and Don
Gottier, Supreme Court of Alabama, Consolidated
Case Nos.: 1180252 and 1180302 (unpublished
decision affirming the Circuit Court judgments
entered on December 18, 2020 and denying
Petitions for Rehearing on the consolidated cases on
February 19, 2021).
CORPORATE DISCLOSURE STATEMENT
Petitioner Newsome Law, LLC is an Alabama
limited liability company wholly owned by Petitioner
Burt W. Newsome. It does not have any parent
companies, and no entity or other person has any
ownership interest in it.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
LIST OF DIRECTLY RELATED
PROCEEDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RELEVANT CONSTITUTIONAL PROVISIONS . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
1. Factual and Procedural History . . . . . . . . . . . 2
2. How the federal questions sought to be
reviewed were raised. . . . . . . . . . . . . . . . . . . 14
REASONS FOR GRANTING THE WRIT. . . . . . . . 15
I. This Honorable Court’s seminal holding in
Newton v. Rumery does not allow the
government to insulate non-governmental
individuals and entities from all civil and
criminal liability in release-dismissal
agreements entered in a criminal action . . . . . . 16
II. Due Process does not allow for courts to give
deferential treatment to implicit holdings and
unfiled orders because it deprives a litigant of
his right to full appellate review. . . . . . . . . . . . . 27

iv
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX
Appendix A Certificate of Judgment and Denying
Application for Rehearing in the
Supreme Court of Alabama
(February 19, 2021) . . . . . . . . . . . App. 1
Appendix B Certificate of Judgment and Denying
Application for Rehearing in the
Supreme Court of Alabama
(February 19, 2021) . . . . . . . . . . . App. 3
Appendix C Opinion in the Supreme Court of Alabama
(December 18, 2020) . . . . . . . . . . . App. 5
Appendix D Order on Motion to Dismiss of Don
Gottier in the Circuit Court of
Jefferson County, Alabama
Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 46
Appendix E Order on Motion for Summary
Judgment by John F. Bullock in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 48
Appendix F Order on Defendant Claiborne Seier’s
Motion for Summary Judgment in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 54

v
Appendix G Order on Motion for Summary
Judgment of Clark Andrew Cooper
and Balch & Bingham, LLP in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . . App. 64
Appendix H Order on Motion to Vacate Summary
Judgment in the Circuit Court of
Jefferson County, Alabama
Birmingham Division
(November 27, 2018) . . . . . . . . . . App. 78
Appendix I Order
on
Alabama Litigation
Accountability Act in the Circuit Court
of Jefferson County, Alabama
Birmingham Division
(December 7, 2018) . . . . . . . . . . . App. 81
Appendix J Order on Motion to Vacate Alabama
Litigation Accountability Act Order in
the Circuit Court of Jefferson County,
Alabama Birmingham Division
(December 18, 2018) . . . . . . . . . . App. 93
Appendix K Dismissal and Release Order in the
District Court of Shelby County,
Alabama
(November 12, 2013) . . . . . . . . . . App. 95
Appendix L Transcript of Proceedings in the
Circuit Court for the Eighteenth
Judicial Circuit, Shelby County,
Alabama
(June 3, 2016) . . . . . . . . . . . . . . . App. 99

vi
Appendix M Order in the Circuit Court of Shelby
County, Alabama
(June 8, 2016) . . . . . . . . . . . . . . App. 117
Appendix N Order in the Supreme Court of
Alabama
(April 27, 2018) . . . . . . . . . . . . . App. 126
Appendix O Order on Judicial Recusal in the
Circuit Court of Jefferson County,
Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . App. 131
Appendix P Order in the Circuit Court of Jefferson
County, Alabama Birmingham Division
(June 15, 2018) . . . . . . . . . . . . . App. 133

vii
TABLE OF AUTHORITIES
CASES
Atkinson v. Grumman Ohio Corp.,
37 Ohio St. 3d 80, 523 N.E.2d 851 (1988) . . . . . 27
Cain v. Darby Borough,
7 F.3d 377 (3d Cir. 1993) . . . . . . . . . 19, 20, 22, 23
Cuba-Diaz v. Town of Windham,
274 F. Supp. 2d 221 (D. Conn. 2003) . . . . . . 19, 26
D.N. v. K.M.,
61 A.3d 150 (N.J. Super. Ct. App. Div. 2013) . . 21
Dixon v. City of Mobile,
859 So. 2d 462 (Ala. Crim. App. 2003) . . . . . . . . 29
Griffin v. Illinois,
351 U.S. 12 (1956). . . . . . . . . . . . . . . . . . . . . . . . 27
Kinney v. City of Cleveland,
144 F. Supp. 2d 908 (N.D. Ohio 2001) . . . . . . . . 22
Lisenba v. California,
314 U.S. 219 (1941). . . . . . . . . . . . . . . . . . . . . . . 21
Logan v. Zimmerman Brush Co.,
455 U.S. 422 (1982). . . . . . . . . . . . . . . . . . . . . . . 20
Lynch v. Alhambra,
880 F.2d 1122 (9th Cir. 1989). . . . . . . . . . . . . . . 26
M.L.B. v. S.L.J.,
519 U.S. 102 (1996). . . . . . . . . . . . . . . . . . . . . . . 27
MacDonald v. Musick,
425 F.2d 373 (9th Cir. 1970). . . . . . . . . . . . . . . . 20

viii
Malinski v. New York,
324 U.S. 401 (1945). . . . . . . . . . . . . . . . . . . . 20, 21
Mathews v. Eldridge,
424 U.S. 319 (1976). . . . . . . . . . . . . . . . . . . . . . . 21
Newton v. Rumery,
480 U.S. 386 (1987). . . . . . . . . . . . . . . . . . . passim
Ohnemus v. Thompson,
594 F. App’x 864 (6th Cir. 2014) . . . . . . . . . 19, 26
Patterson v. City of Akron,
619 F. App’x 462 (6th Cir. 2015) . . . . . . . . . . . . 19
Raia v. Goldberg,
33 Ala. App. 435, 1948 Ala. App. LEXIS 506,
34 So. 2d 620 . . . . . . . . . . . . . . . . . . . . . . . . . 19, 24
State v. Lohberger,
2008-NMSC-033, 144 N.M. 297,
187 P.3d 162 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
State v. Montoya,
2008-NMSC-043, 144 N.M. 458,
188 P.3d 1209 . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
Swander Ditch Landowners’ Ass’n v. Joint
Bd. of Huron & Seneca Cty. Comm’rs,
51 Ohio St. 3d 131, 554 N.E.2d 1324 (1990) . . . 28
Y.W. by & Through Smith v. Nat’l Super Mkts.,
876 S.W.2d 785 (Mo. Ct. App. 1994) . . . . . . 19, 24

ix
CONSTITUTION AND STATUTES
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . 20
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. §1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Ala. Code 1975 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Alabama Litigation Accountability Act,
§ 12-19-270 et seq . . . . . . . . . . . . . . . . . . . . . . . . 14
RULES
Sup. Ct. R. 16 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
PETITION FOR WRIT OF CERTIORARI
Petitioners Burt W. Newsome and Newsome Law,
LLC respectfully petition for a writ of certiorari to
review the decision and judgment of the Supreme
Court of Alabama in this case, or in the alternative,
Petitioners respectfully request that this Honorable
Court summarily reverse the decision and judgment of
the Supreme Court of Alabama pursuant to Supreme
Court Rule 16.
OPINIONS BELOW
The Supreme Court of Alabama issued its
unpublished opinion on December 18, 2020 and is
reproduced at App.5-45. The opinion of the Supreme
Court of Alabama is available at Newsome v. Cooper,
Nos. 1180252, 1180302, 2020 Ala. LEXIS 185 (Dec. 18,
2020). The Supreme Court of Alabama summarily
denied Petitions for Rehearing without rendering an
opinion on February 19, 2021. App.1-4. The Circuit
Court of Jefferson County, Alabama Birmingham
Division issued an order and judgment on a motion
dismiss on June 15, 2018 and it is reproduced at
App.46-47. The Circuit Court of Jefferson County,
Alabama Birmingham Division issued individual
orders and judgments on motions for summary
judgment as to each defendant on June 15, 2018, and
they are reproduced at App.48-77. The Circuit Court of
Jefferson County, Alabama Birmingham Division
issued an order and judgment awarding attorneys’ fees
on December 7, 2018 and is reproduced at App.81-92.

2
JURISDICTION
The Supreme Court of Alabama issued its opinion in
the consolidated appeals on December 18, 2020.
Petitioners filed timely Petitions for Rehearing with
the Supreme Court of Alabama and the Supreme Court
of Alabama denied the Petitions for Rehearing on
February 19, 2021. On March 19, 2020, this Court
extended the deadline to file any petition for a writ of
certiorari due on or after that date to 150 days. This
Court has jurisdiction under 28 U.S.C. §1257.
RELEVANT CONSTITUTIONAL PROVISIONS
The Fourteenth Amendment of the United States
Constitution provides in relevant part:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state
wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any state deprive any person of
life, liberty, or property, without due process of
law, nor deny to any person within its
jurisdiction the equal protection of the laws.
U.S. Const. amend. XIV.
STATEMENT OF THE CASE
1. Factual and Procedural History
Petitioner Burt W. Newsome is an attorney in the
State of Alabama who owns and operates Newsome
Law, LLC. App.6. As part of his legal practice,

3
Petitioner Newsome represents banks in collection
actions. App.8.
In 2012, Petitioner Newsome on behalf of his
banking client obtained a judgment against a Ms.
Lawson and began collection efforts. Brief 1, p. 5. After
noticing Ms. Lawson’s post-judgment deposition and
garnishing her wages, Ms. Lawson’s common-law
husband, Alfred Seier threatened Petitioner Newsome.
Brief, pp. 5-6. In January 2012, Alfred Seier parked
his vehicle adjacent to Petitioner Newsome’s vehicle in
the parking lot of Petitioner Newsome’s law practice.
Brief, p. 6. When Petitioner Newsome went to his
vehicle, Alfred Seier pointed a gun at Petitioner
Newsome and told him “never to f**k with his wife
again.” Brief, p. 6. Petitioner Newsome was unarmed
and escaped by dodging behind his vehicle and running
to the back door of his office. Brief, p. 6. Petitioner
Newsome immediately called the authorities and filed
charges against Alfred Seier. Brief, p. 6.
Thereafter, Alfred Seier’s brother Claiborne Seier,
who is also an attorney, called Petitioner Newsome’s
office insisting that Petitioner Newsome drop the
criminal charges against his brother explaining that
his brother was dying from cancer. Brief, p. 6.
Petitioner Newsome refused to drop the charges
making Claiborne Seier angry. Brief, p. 6. During this
time, Petitioner Newsome’s banking client went on
lockdown fearing that their employees could be killed

1

References to “Brief” refers to the Brief of Appellants Burt W.
Newsome and Newsome Law, LLC filed in the Supreme Court of
Alabama.

4
by Alfred Seier. Brief, p. 7. The bank, thereafter, sold
the debt of Ms. Lawson to Claiborne Seier at a
discounted rate. Brief, p. 7. At the criminal trial of
Alfred Seier, Claiborne Seier again urged Petitioner
Newsome to drop the charges against his brother.
Brief, p. 7. When Petitioner Newsome refused,
Claiborne Seier threatened Petitioner Newsome that
“he was going to get him.” Brief, p. 7. Alfred Seier was
convicted of menacing and died a few months later.
Brief, p. 7.
Later that year, in December 2012, Petitioner
Newsome found himself in an eerily similar situation
to the events that unfolded with Alfred Seier. App.7.
Petitioner Newsome’s law office shares a parking lot
with a dental office. App.6. Defendant John Bullock
arrived at the parking lot at 6:30 a.m. Brief, p. 11.
Defendant Bullock purportedly arrived an hour and
half early for a dental appointment. Brief, p. 11. While
initially not parked by Petitioner Newsome’s vehicle, by
7:30 a.m., John Bullock’s vehicle was parked adjacent
to Newsome’s vehicle in a manner identical to the
Alfred Seier gun threat incident. Brief, p. 11. When
Petitioner Newsome went to his car, Defendant Bullock
quickly opened his car door blocking Newsome from
getting into his car. Brief, p. 11. The parking and the
way Bullock exited his vehicle was identical to the
events that unfolded with Alfred Seier. Brief, p. 11.
Feeling threatened, Petitioner Newsome pulled out a
handgun, held it by his side and instructed Bullock to
return to his vehicle until Newsome left the parking
lot. Brief, p. 11. Defendant Bullock moved out of the
way and Newsome got in his car and left for court.
Brief, p. 11.

5
John Bullock’s testimony as to the events thereafter
is unclear. Brief, p. 12. Bullock at one point testified
that he called the police when he went into the dentist
office, but later stated that he called the police after he
came out of his dental appointment. Brief, p. 12.
According to the police report, Bullock stated he did not
know Newsome and identified Newsome after being
shown a driver’s license photograph. Brief, p. 12.
Immediately after the incident, however, Bullock told
his dentist that Newsome was his assailant. Brief, p.
12. Approximately, one month after the incident, on
January 14, 2013, Bullock filed a criminal complaint
against Newsome for menacing. Brief, p. 13.
A few months later, on May 2, 2013, Newsome was
stopped for speeding, and was arrested on the
menacing warrant. Brief, p. 14. Newsome was taken
into custody and released later that day. Brief, pp. 1415. Shortly after Newsome was released and returned
to his office, Defendant Claiborne Seier called
Newsome’s law office. Brief, p. 15. There was no
apparent reason for the call. Brief, p. 15.
Two days after Newsome’s arrest, Defendant Clark
A. Cooper, emailed a representative of a bank about
Newsome’s arrest. Brief, p. 15. Defendant Cooper is
an attorney who was a partner at the law firm of
Defendant Balch & Bingham, LLP. App.6. Defendant
Cooper and his former firm represent some of the same
banking clients as Petitioner Newsome. Brief, p. 15.
This email was sent to a client both Newsome and
Cooper represented. Brief, p. 15. Cooper insinuated
that the arrest could affect Newsome’s legal license. In
one email, Cooper emailed a copy of Newsome’s

6
mugshot and stated, “Have you seen this? Not sure how
it’s going to affect his law license. Bizarre.” Brief, p.
15. In a second email, Cooper quoted the menacing
statute and stated, “It is a class B misdemeanor. Not
sure how this will affect his law license.” Brief, p. 15.
This resulted in the bank representative questioning
Petitioner Newsome’s ability to practice law and he
stopped sending Newsome case files for a period of
time. Brief, p. 15.
In the underlying proceedings, Defendant Cooper
had differing stories as to how and when he learned of
Newsome’s arrest. Brief, p. 16. In an unsworn
affidavit, he stated he learned of the arrest on the
Saturday that he sent the emails to the bank
representative. Brief, p. 16. In a sworn deposition, he
claimed he learned of the arrest on either Thursday or
Friday which would have been the day of the arrest or
the day after. Brief, p. 16. In another unsworn
affidavit, Cooper claimed he learned of the arrest by
seeing Newsome’s mugshot on a publicly available
website. Brief, p. 16. In a sworn deposition, however,
Cooper claimed he learned the information from a
paralegal at Balch & Bingham who either sent him a
copy or printed the information for him. Brief, p. 17.
In November 2013, Petitioner Newsome appeared in
the District Court of Shelby County for his criminal
trial. Brief, p. 17. The judge instructed the parties to
discuss the case in a separate room. Brief, p. 17.
Petitioner Newsome set forth that during the
discussions Defendant Bullock told everyone in the
room he was simply going to a dentist’s appointment
when the incident took place. Brief, p. 17. Newsome

7
asserted that although Bullock wanted Newsome to
plead guilty, Newsome refused.
Brief, p. 17.
Thereafter, Bullock asserted he was dropping the
charges. Brief, p. 17. Relying on Bullock’s claim that
he was simply going to a dentist’s appointment,
Newsome signed a Dismissal & Release form provided.
Brief, p. 17. The form order states “STATE OF
ALABAMA V. Burton Wheeler Newsome. CASE NO.
DC 2013-1434. This matter comes before the Court by
specific AGREEMENT of the parties.” App.95. John
Bullock is not a named party in the criminal case.
App.95. The form order contains four alternate
dispositional paragraphs.
App.95-96.
The only
paragraph checked in this criminal case provided that
the case was continued until April 2014 and then to be
dismissed with prejudice provided that the defendant
had no further arrests. App.95-96. The paragraphs
regarding pre-trial diversion and the paragraphs
regarding restitution were not checked as they were
not applicable to Newsome’s dismissal agreement.
App.96. The form order also contained a release of all
of Newsome’s civil and criminal claims against
countless governmental entities as well as nongovernmental entities, complainants and potential
witnesses. App.97. On April 4, 2014, the district court
dismissed the criminal case against Newsome with
prejudice. Brief, p. 20.
On January 14, 2015, Petitioner Newsome filed a
civil lawsuit from which this Petition arises. Brief, p.
20. Petitioner Newsome and his law firm Newsome
Law, LLC sued attorney Clark A. Cooper, Mr. Cooper’s
former law firm Balch & Bingham, LLP, John W.
Bullock, and Claiborne Seier in the Jefferson Circuit

8
Court “alleging that the defendants combined to have
Newsome arrested on a false charge with the intent of
damaging his reputation and law practice.” App.6.
During discovery, Petitioners through an amended
complaint named Don Gottier as an additional
defendant. Petitioners alleged, “as later amended,
malicious prosecution, abuse of process, false
imprisonment, the tort of outrage, defamation, invasion
of privacy, and multiple counts of conspiracy and
intentional interference with a business relationship.”
App.9.
Petitioners alleged that the Defendants
conspired “to set Newsome up to be arrested so that
Cooper could then take Newsome’s clients on behalf of
Balch and Seier could get revenge upon Newsome for
filing a menacing charge against Alfred.” App.9-10.
On February 13, 2015, Defendant Seier filed a motion
to dismiss arguing that Petitioner’s claims had no
factual basis and “the claims were barred by the
release clause in the D&R [Dismissal & Release] order
because the claims were related to Newsome’s
menacing case.” App.10.
A few days later, Petitioner Newsome filed a motion
to expunge his criminal case. App.10. Both the State
of Alabama and Defendant Bullock filed objections to
the expungement. App.10. In his objection to the
expungement, Bullock argued that Petitioner Newsome
had filed a civil action against him, and that the
expungement should not be permitted because
purportedly Newsome breached the terms of the
release contained in the D&R order. App.103-107.
Newsome, the government and Bullock appeared for a
hearing on the motion. App.101-107. Initially, the
court denied the expungement. App.10. Petitioner

9
Newsome filed a timely motion to reconsider. App.105.
Defendant Bullock again submitted opposition papers
and the judge granted Newsome’s motion and entered
an order of expungement. App.105. Shortly thereafter,
the judge who ordered the expungement retired from
the bench. App.118.
While the parties were litigating the expungement
in the criminal action pending in Shelby Circuit Court,
the Jefferson Circuit Court granted Defendant Seier’s
motion to dismiss in this civil action. App.10. In the
civil action, the court also granted a motion to dismiss
filed by Defendant Bullock and motions for summary
judgment filed by Defendant Cooper and Balch &
Bingham, LLP based upon the overbroad release.
App.10. After Petitioner Newsome was granted the
expungement, he filed motions to reconsider in the civil
action arguing, among other things, that because his
case had been expunged, under Alabama law, the
Defendants could not rely on the release contained in
the D&R order. App.10-11. The civil court granted
Newsome’s motion and vacated the judgments issued
to the Defendants in the civil action. App.11
Thereafter, Defendant Bullock filed papers in the
criminal action seeking to use the records in Petitioner
Newsome’s expunged file. App.117. Defendant Seier,
who was not the complainant in the criminal case, filed
papers to have Petitioner Newsome’s expungement
reversed. App.117-118 Defendant Seier argued that
Petitioner Newsome supposedly obtained the
expungement based on false pretenses because he
checked the boxes on the expungement form stating
that he complied with all the conditions imposed by the

10
court order of dismissal. App.110-112. Petitioner
Newsome opposed the application arguing that Seier
had no standing to seek a reversal of his expungement
because he was not a party and was not even the
complainant in the criminal action. App.110-112.
Petitioner Newsome also argued that Defendant
Bullock had apprised the judge of the civil action in
opposition papers and at a hearing regarding the
motion for expungement.
App.111.
Petitioner
Newsome also argued that Defendant Seier’s motion
was untimely and improper because the conditions
imposed by the judge were the imposition of paying
court costs and having no further arrests and the
release, pursuant to the law, was distinct from the
court-imposed conditions. App.109-111.
Defendant Bullock’s motion to use the expunged
records and Defendant Seier’s motion to reverse the
expungement were presented to a new judge because
the judge who issued the previous orders retired.
App.118. At the hearing on the motions, Defendant
Bullock claimed to join in Defendant Seier’s
procedurally improper motion. App.117-118. During
the hearing, the government appeared but stated it
was unsure if it was even a party to the action.
App.101. It was also noted that because the case had
been expunged Petitioner Newsome could not file
papers in the action with the clerk but was forced to
hand them to the judge on the hearing date. App.101102. Surprisingly, the papers submitted by Defendant
Seier, who was not involved in the criminal case in any
manner, had been accepted by the clerk for filing in the
expunged action even though Petitioner Newsome, who

11
was a party to the criminal case, was precluded from
filing papers with the clerk. App.101-102.
After the hearing, the new judge noted that he did
not believe Defendant Seier had standing to seek the
reversal of expungement and noted that given the
procedural posture of the case his order may be
reversed. App.114-116. Nevertheless, he asked that a
proposed order be sent to him for his review. App.116.
Thereafter, the judge purportedly issued an order,
dated June 8, 2016, reversing Petitioner Newsome’s
expungement. This purported order, however, was
never file stamped and never entered in the State
Judicial Information System (“SJIS”) in Alabama as
required by Alabama law.
App.25.
Petitioner
Newsome sought a Writ of Mandamus from the
Alabama Court of Criminal Appeals arguing that the
court order that the judge vacate the purported order
because it was void based on numerous grounds
including, Defendant Seier’s lack of standing to bring
the motion to reverse the expungement, the motion was
not brought in a timely or procedurally proper manner,
and the fact that it was never formally filed made the
order a nullity. App.22-25. The Court of Criminal
Appeals noted that a Writ of Mandamus is reviewed
under the abuse of discretion standard and denied the
Writ based on this standard of review. Petitioner
Newsome then filed a Writ of Certiorari, or in the
alternative, a Writ of Mandamus with the Supreme
Court of Alabama. App.12. On April 27, 2018, the
Supreme Court of Alabama denied the Writ and
ordered that the June 8, 2016 order be entered in the
SJIS system. App.126. This was a hotly debated
matter whereas two judges provided dissenting

12
opinions. One dissenting Justice wrote, “by instructing
the trial court to enter its June 8, 2016, order into the
SJIS, this Court invades the province of the trial court
to determine whether – and, if so, when – that order
should be made effective.” App.130. This Justice also
stated the impropriety of the Supreme Court’s order
was demonstrated by the fact that no party requested
that the order be entered into the SJIS, and stated,
that the order “remains within the control of the signer
and that signer, the judge, is free to alter it, postpone
its entry, or decide not to cause it to be entered at all.”
App.130.
While the expungement issues were being litigated,
the Defendants Bullock, Cooper, Balch and Seier filed
motions for summary judgment while Defendant
Gottier filed a motion to dismiss. App.14. The
Defendants provided self-serving attestations that,
except for Cooper and Balch, the Defendants did not
know one another and were not involved in any
conspiracy. App.14. The Defendants asserted that
there was no issue of material fact because a Verizon
representative was deposed who stated a telephone
number that appeared on the telephone records of
Defendants Cooper, Bullock and Seier was purportedly
a routing number used to connect calls from outside a
caller’s home area and was not assigned to any
individual customer.
App.13.
The Verizon
representative, however, provided no documentary
evidence regarding these statements. Brief, pp. 53-57.
The telephone records indicate, however, that these
Defendants all received phone calls from this number
“on dates surrounding notable events in this case,
including the date of Newsome and Bullock’s

13
confrontation in the parking lot, the date of Newsome’s
arrest, the date Cooper sent the email with Newsome’s
mug shot to [the bank] executive, and the date the
Newsome plaintiffs filed their complaint initiating the
underlying action.” App.12. Defendant Gottier, who
was brought into the lawsuit by amended complaint,
asserted that this telephone number did not belong to
him even though internet searches indicated that the
telephone number did belong to him.
App.13.
Defendant Gottier asserted that he was a victim of
identity theft regarding the telephone number. App.13.
Newsome filed opposition papers which included an
affidavit from the director of the North American
Numbering Planning Agency in Washington, D.C. who
attested that the telephone number belonged to Ciera
Networking Systems, Inc. and an affidavit from a
former Vice President of Sales at Ciera who stated the
telephone number has a CIC code 9 which indicates it
is a code for Ciera Networking Systems, Inc. and
indicates that the telephone calls were from a prepaid
phone card. Brief, pp. 41-46. Defendants made a
motion to strike these affidavits. App.133-134.
During the pendency of the motions for summary
judgment, Petitioners moved to recuse the judge in the
civil action. App.14. When the judge denied the
motion, Petitioners sought a Writ of Mandamus from
the Supreme Court of Alabama which was ultimately
denied. App.14.
In rendering its decision on the Defendants’ motion,
the lower court judge struck the affidavits submitted by
Petitioners in their opposition papers and rendered
summary judgment in favor of the Defendants Bullock,

14
Cooper, Balch and Seier on June 15, 2018. App. 48-77;
133-134. The lower court also granted Defendant
Gottier’s motion to dismiss on the same date. App.4647. The Petitioners moved to alter, amend or vacate
these orders and the motion was denied on November
27, 2018. App.78-80. The Petitioners timely appealed
these orders. Thereafter, on December 7, 2018, the
lower court also awarded the Defendants attorneys’
fees and costs pursuant to the Alabama Litigation
Accountability Act, § 12-19-270 et seq., Ala. Code 1975.
App.81-92. The Petitioners moved to alter, amend or
vacate this order and the lower court denied the relief
on December 18, 2018. App.93-94. The Petitioners
timely appealed. The Supreme Court of Alabama
consolidated the appeals and issued a decision
affirming the judgments of the lower court on
December 18, 2020. App.5-45, Petitioners filed timely
Petitions for Rehearing with the Supreme Court of
Alabama and the Supreme Court of Alabama denied
the Petitions for Rehearing on February 19, 2021.
App.1-4.
2. How the federal questions sought to be
reviewed were raised.
Petitioners argued that the release was void under
federal law pursuant to this Honorable Court’s
precedent in Newton v. Rumery, 480 U.S. 386 (1987),
which requires that the party relying on the release
must prove the release is valid. The Circuit Court
improperly determined that the release was valid
without applying the Rumery factors. App.51, 89. On
appeal, the Supreme Court of Alabama addressed
“[w]hether the release clause is void under federal law”

15
and improperly applied the Rumery factors in
contravention of this Honorable Court’s precedent.
App.32-33.
Petitioners argued that the lower court could not
rely on an unfiled order which was void pursuant to
law. The Circuit Court did not address this issue. On
appeal, the Supreme Court of Alabama addressed the
issue in its opinion but violated the Petitioners’ due
process rights to appellate review by relying on an
implicit holding the court had previously rendered
regarding the unfiled order. App.22-25.
REASONS FOR GRANTING THE WRIT
The Supreme Court of Alabama’s decision is the
ideal vehicle to address whether a release-dismissal
agreement pursuant to this Honorable Court’s
guidelines can encompass non-governmental persons
and entities which were never contemplated in the
seminal holding of Newton v. Rumery, 480 U.S. 386
(1987). Further, this Honorable Court must address
whether these increasingly overbroad release-dismissal
agreements can waive a litigant’s right to pursue a
criminal prosecution. The Supreme Court of Alabama’s
decision is also an ideal vehicle to address whether a
state court judge can withhold the formal filing of a
final decision/order and still be in accord with due
process principles established by our Constitution.

16
I. This Honorable Court’s seminal holding in
Newton v. Rumery does not allow the
government to insulate non-governmental
individuals and entities from all civil and
criminal liability in release-dismissal
agreements entered in a criminal action.
In Newton v. Rumery, 480 U.S. 386 (1987), this
Honorable Court held that release-dismissal
agreements entered in a criminal action could not be
deemed per se valid nor per se invalid but instead must
be decided on a case-by-case approach. Id. In Rumery,2
this Honorable Court established that this case-by-case
approach required the defendant seeking to enforce a
release-dismissal agreement prove that the agreement
was entered into voluntarily, free from prosecutorial
misconduct and was not offensive to relevant public
interests. Id. at 399.
This Honorable Court’s holding in Rumery has
resulted in government overreach in the use of releasedismissal agreements warranting this Court’s
intervention. Since the Rumery decision, the use of
release-dismissal agreements in criminal cases in
Alabama have evolved beyond permissible use. Rather
than simply waiving any civil claims against the
government, the release-dismissal agreement in this
action waives all civil and criminal claims against
countless non-governmental individuals. This
unconstitutional, overbroad release reads as follows:

2

Throughout our state and federal courts, the holding in Newton
v. Rumery has routinely been referred to as the Rumery holding or
standard.

17
The Defendant does hereby grant a full,
complete and absolute Release of all civil and
criminal claims stemming directly or indirectly
from this case to the State of Alabama, its
agents and employees, including but not limited
to the District Attorney for Shelby County,
Alabama, his agents and employees; to Shelby
County, Alabama, its agents and employees,
including, but not limited to the Sheriff of said
County, his agents and employees, to any other
law enforcement or investigative agencies,
public or private, their agents and employees; to
any other complainants, witnesses, associations,
corporations, groups, organizations or persons in
any way related to this matter, to also include
the Office of the Public Defender of Shelby
County, Alabama, its agents and employees,
from any and all actions arising from the
instigation, investigation, prosecution, defense,
or any other aspect of this matter. The
Defendant freely makes this release knowingly
and voluntarily. In exchange for this release,
this case will be either dismissed immediately,
or pursuant to conditions noted above. App.97.
Petitioners correctly argued that the holding in
Rumery should be applicable to the instant case and
that this release-dismissal agreement was
unenforceable as a matter of law pursuant to the
holding in Rumery. Additionally, the public policy
reasons set forth by this Honorable Court for not
invalidating all release-dismissal agreements as void
because of the government’s interests in protecting
itself by use of a release, are simply unavailable to non-

18
governmental individuals and entities.
Further,
Rumery never allowed for the waiver of criminal claims
against any individuals. By extending the release to
include “any other complainants, witnesses,
associations, corporations, groups, organizations or
persons in any way related to this matter,” the
government, through the prosecutor’s office,
impermissibly violated the constitutional rights of the
Petitioners. App.97.
In deciding the instant action, the Supreme Court
of Alabama upheld the lower court’s granting of
summary judgment for the defendants stating that
“Newsome is bound by the release clause in the D&R
order.” App.15. The Supreme Court of Alabama
simply failed to properly apply the Rumery factors to
the dismissal-release at issue. The Supreme Court of
Alabama stated “[t]he D&R order indicates on its face
that Newsome voluntarily agreed to its terms.
Moreover, there is no evidence, or even an allegation,
of prosecutorial misconduct, and enforcing the D&R
order according to its terms would not adversely affect
any public interest.” App.33. The Supreme Court of
Alabama improperly flipped the burden of proof set
forth in Rumery onto the Petitioners. The proper
burden of proof was on the defendants to show that the
release obtained was voluntary, free from prosecutorial
misconduct and did not affect the public interest.
Defendants did not even attempt to meet this burden,
yet each defendant was granted a motion for summary
judgment despite the clear legal burden placed upon
defendants to prove the elements established by the
holding in Rumery. The defendants never met the legal
burden required by Rumery.

19
The Supreme Court of Alabama’s knee jerk reaction
to summarily agree to the purported enforceability of
the release-dismissal agreement is a common error that
inflicts the state and federal courts. Our courts are
under the erroneous notion that these agreements are
presumptively valid – they are not. Ohnemus v.
Thompson, 594 F. App’x 864, 868 (6th Cir. 2014).
Further, since the Rumery holding many courts have
failed to employ the “critical eye” required by Rumery.
Cuba-Diaz v. Town of Windham, 274 F. Supp. 2d 221,
226 (D. Conn. 2003). Clearly, the Alabama courts have
forgotten that the party seeking to enforce these
release-dismissal agreements must show “absence of
prosecutorial misconduct.” Patterson v. City of Akron,
619 F. App’x 462, 476 (6th Cir. 2015). This was a legal
impossibility in this case whereas it is fundamentally
illegal (and of course unconstitutional) to have a party
waive a right to a criminal prosecution. Raia v.
Goldberg, 33 Ala. App. 435, 439, 1948 Ala. App. LEXIS
506, *10, 34 So. 2d 620; Y.W. by & Through Smith v.
Nat’l Super Mkts., 876 S.W.2d 785, 791 (Mo. Ct. App.
1994). Further, the preprinted dismissal-release order
here will never meet the exacting standard set forth by
Rumery wherein a blanket policy by a prosecutor’s
office does not meet the Rumery test. Cuba-Diaz v.
Town of Windham, 274 F. Supp. 2d 221, 227 (D. Conn.
2003). The Alabama courts not only failed to apply the
prosecutorial misconduct factor correctly, but also
believed that these agreements are de facto beneficial
and valid. Such a belief is a gross distortion of the
Rumery test whereas these dismissal-release
agreements are not presumptively valid nor are they
per se beneficial to the public interest. Ohnemus v.
Thompson, 594 F. App’x 864, 868 (6th Cir. 2014); Cain

20
v. Darby Borough, 7 F.3d 377 (3d Cir. 1993). Many
counties and courts have discarded the Rumery factors
and are requiring criminal defendants to agree to
overbroad, illegal and unconstitutional agreements to
secure their freedom. This is not the job of a
prosecutor. Also, these release-dismissal agreements
place a prosecutor in the dangerous role of perverting
the criminal process to favor one litigant over another.
The courts have routinely forewarned it is against legal
ethics and standards to use the criminal process to gain
an advantage in a civil case. MacDonald v. Musick,
425 F.2d 373, 376 (9th Cir. 1970). This ridiculous,
dangerous release was used as a security blanket to
protect many people and entities not associated with
this case – including one of Alabama’s largest law
firms.
By failing to apply the Rumery factors and flipping
the burden of proof on the Petitioners in contravention
of the law, the Alabama courts violated Petitioners’
due process rights. This violation of Petitioners’ due
process rights was only compounded by disposing of the
action on summary judgment. Causes of action have
been established as a property right protected under
the constitutional guarantee of due process. Logan v.
Zimmerman Brush Co., 455 U.S. 422, 428 (1982). The
Fifth Amendment firmly establishes an individual’s
constitutional guarantee that “[n]o person shall…be
deprived of life, liberty, or property, without due
process of law.” U.S. Const. amend. V. This Court has
stated “[t]o suppose that ‘due process of law’ meant one
thing in the Fifth Amendment and another in the
Fourteenth is too frivolous to require elaborate
rejection.” Malinski v. New York, 324 U.S. 401, 415

21
(1945). “[D]ue process is flexible and calls for such
procedural protections as the particular situation
demands.” Mathews v. Eldridge, 424 U.S. 319, 334
(1976). This Honorable Court has established that
there is a denial of due process where an absence of
fairness fatally inflicts a trial because “fundamental
fairness [is] essential to the very concept of justice.”
Lisenba v. California, 314 U.S. 219, 236 (1941). “A
litigant in civil proceedings is entitled to a fair hearing,
imbued with the protections of due process.” D.N. v.
K.M., 61 A.3d 150, 156 (N.J. Super. Ct. App. Div. 2013).
Throughout this action and the underlying criminal
proceedings relating to the expungement of Petitioner
Newsome’s criminal record, Petitioner Newsome was
not afforded these cherished constitutional due process
protections.
In filing the civil lawsuit, Petitioners clearly placed
the voluntariness of the release at issue. Petitioner
Newsome stated that when he signed the release, he
was unaware of the conspiracy to have him arrested in
order to ruin his reputation and take his book of
business. Petitioner Newsome specifically alleged that
the release was procured by the fraudulent conduct of
the defendants and was therefore not voluntary.
App.30. Petitioner Newsome’s claims of fraud were
summarily rejected by the Alabama courts on a
summary judgment motion. While the Supreme Court
of Alabama acknowledged “that a release obtained by
fraud is void,” the court improperly stated there were
no issues of fact by giving carte blanche acceptance to
the defendants’ self-serving attestations in support of
their motions. App.31.

22
Also, Petitioners clearly set forth that summary
judgment was inappropriate because the defendants
did not and could not meet their burden of proof
regarding the public policy requirements under
Rumery. Petitioners established that the releasedismissal order used in Mr. Newsome’s criminal case
was on a preprinted form. Petitioners established that
the preprinted release-dismissal form is used in all
criminal dismissals in Alabama as part of a blanket
policy. The defendants offered no testimony from the
prosecution as to its reasoning why it believed the
release was necessary in this case - as was their
evidentiary burden.3 Courts that have addressed the
issue of form releases as part of a blanket policy of a
prosecutor’s office have found these releases to be
unenforceable as a matter of law. Cain v. Darby
Borough, 7 F.3d 377 (3d Cir. 1993); Kinney v. City of
Cleveland, 144 F. Supp. 2d 908 (N.D. Ohio 2001).
These courts have reasoned the public interest showing
required under Rumery simply fails as matter of law
when prosecutors rely on a blanket policy of requiring
releases in exchange for dismissals. Cain, 7 F.3d at
383; Kinney, 144 F. Supp. 2d at 918-19. In Cain, the
court explained, “[t]he standard for determining
whether a release meets the public interest
requirement is an objective one, based upon the facts
known to the prosecutor when the agreement was
reached. Additionally, the public interest reason
3

Indeed, in the defendants’ attempt to vacate Mr. Newsome’s
expungement, the prosecution was present at the hearing and
interestingly, the prosecution made no attempt to address the
validity of the release and its effect on non-parties to the criminal
case. App.99-116.

23
proffered by the prosecutor must be the prosecutor’s
actual reason for seeking the release.” Id. at 381.
Furthermore, the court stressed that in determining
public policy “the issue is not what the prosecutor
might or could have thought; it is what actually
motivated him or her in seeking a particular release.”
Id. In the instant action, the defendants provided no
testimony regarding why the prosecution sought the
release. In contrast, Petitioners established that the
release was part of a blanket policy by the prosecutor’s
office. As a matter of law, the Supreme Court of
Alabama’s decision is in contravention of this
Honorable Court’s precedent.
Furthermore, this case gives this Honorable Court
the opportunity to address whether these overbroad
releases would violate public policy even when they are
not part of a blanket policy of the prosecutor’s office.
These types of purported agreements impermissibly
blur the line between criminal and civil actions. In
order to satisfy the public policy showing in Rumery,
the prosecutor would need to investigate and determine
that any and all civil claims between the defendant,
complainant, and all potential witnesses are meritless.
This is not the function of the prosecutor’s office and
injects too many variables into criminal cases.
Additionally, by utilizing the prosecutor’s office to
preclude all civil claims against non-governmental
entities, the State becomes a de facto witness in all civil
actions as to the validity of the release. While this
might not be unduly burdensome in an action against
the government, it would be a waste of government
resources to have prosecutors testify as to the reasons
behind requiring a release of claims that have nothing

24
to do with the government. These overbroad releases
would overburden any prosecutor’s office.
The release in the instant action also releases all
criminal claims against individuals in any way related
to the events at issue.
This is illegal and
unenforceable. Raia v. Goldberg, 33 Ala. App. 435, 439,
1948 Ala. App. LEXIS 506, *10, 34 So. 2d 620; Y.W. by
& Through Smith v. Nat’l Super Mkts., 876 S.W.2d 785,
791 (Mo. Ct. App. 1994). Rumery never stood for the
proposition that the government could make criminal
defendants release their criminal claims against
individuals. The release of criminal claims in releasedismissal agreements is simply a non-starter as it
makes prosecutors the judge and jury. This would
bypass almost every constitutional protection afforded
to individuals.
Additionally, this type of overbroad release simply
creates a dangerous situation.
Blanket general
releases in criminal release-dismissal orders create an
incentive to bring criminal charges in order for
individuals to insulate themselves from civil liability.
This would forever pervert the criminal justice system.
Individuals who are arrested face an impossible
situation wherein they can either sign a dismissalrelease agreement waiving all civil and criminal claims
against the person who filed charges, or they are forced
to defend against a criminal case that could take
months, if not years, in order to preserve any claims
they may have against the person who filed charges.
The patently bizarre situation Petitioner Newsome
was subjected to only highlights the absurdity and
overreach of this blanket dismissal-release. In seeking

25
an expungement of a criminal charge that was
dismissed with prejudice, a defendant in this civil
action sought a reversal of Petitioner Newsome’s
expungement of his criminal record. Purported rights
under this overbroad release were deemed a basis for
individuals to intervene in the expungement of
Petitioner Newsome’s criminal record. This absurd
situation was created by a release which simply should
have been deemed overbroad and unenforceable. The
judge who ordered that Petitioner Newsome’s criminal
expungement be vacated impermissibly created an
untenable situation for Petitioner Newsome.
If
Petitioner Newsome did not want to be bound by the
Release, Petitioner Newsome had to vacate his
dismissal and go to trial. App.108, App.113, App.115.
Rumery does not allow for this type of extortion.
Rumery allows for either the enforcement of a release
or the striking of a release. It does not allow courts to
demand criminal prosecution be reinstated upon the
challenge of a release. Criminal prosecutions were
never supposed to become bargaining chips in civil
actions. There is no legitimate public policy argument
for any individual to release all criminal and civil
claims against individuals potentially related to a
criminal action. The end result is dangerous - criminal
cases become bargaining chips in civil litigation.
The courts in Alabama also granted and affirmed an
award for attorneys’ fees related to Petitioner
Newsome’s challenge to the overbroad, illegal release
that purportedly waived Newsome’s civil and criminal
claims even against non-governmental parties. App.42.
Burt Newsome was well within his right to file a
lawsuit in his home state and consequently challenge

26
the enforceability of this suspect release. Indeed, the
courts have routinely reminded the legal community
that these releases must be reviewed on a case-by-case
basis. Ohnemus v. Thompson, 594 F. App’x 864, 868
(6th Cir. 2014). Further, courts must review a
purported release with a critical eye. Cuba-Diaz v.
Town of Windham, 274 F. Supp. 2d 221, 226 (D. Conn.
2003). The adequacy of a dismissal-release is always
reviewed in a case specific manner wherein “each case
involves unique facts and policy considerations.” Lynch
v. Alhambra, 880 F.2d 1122, 1128 (9th Cir. 1989).
Additionally, in order to enforce a dismissal-release, it
is incumbent on the party seeking its enforceability to
meet the three factors set forth in the Rumery test. As
a result, an action cannot be frivolous whereas a fact
dependent test was required to analyze whether a
dismissal-release was valid under the exacting
standard set forth by Rumery. A challenge to this
release was not unexpected nor was it frivolous –
especially a release that illegally waives criminal
claims and attempts to shield non-governmental actors
and entities. In challenging this legally infirm release,
Petitioner Newsome was attempting to pursue his
property right via a legal action. Finally, allowing
attorneys’ fees to be awarded for challenging this type
of release creates a chilling effect on the right to
challenge these releases which actually requires a
critical eye by the reviewing court. As a result, the
award for attorneys’ fees should be vacated as a matter
of law.

27
II. Due Process does not allow for courts to give
deferential treatment to implicit holdings and
unfiled orders because it deprives a litigant of
his right to full appellate review.
This Honorable Court has held if a state provides a
process for appellate review, “the procedures used must
comply with constitutional dictates of due process.”
Atkinson v. Grumman Ohio Corp., 37 Ohio St. 3d 80,
84, 523 N.E.2d 851, 855 (1988)(citing Griffin v. Illinois,
351 U.S. 12, 18 (1956)). Our system of justice demands
that litigants be afforded the right to an open and fair
court system. This Honorable Court has noted that
once a state provides appellate review “these avenues
must be kept free of unreasoned distinctions that can
only impede open and equal access to the courts.”
M.L.B. v. S.L.J., 519 U.S. 102, 111 (1996).
On appeal, the Petitioners argued that “the
expungement-reversal order is invalid because it is not
in the SJIS.” App.25. The Supreme Court of Alabama
claimed this argument was without merit because
“[w]hen this Court directed the Shelby Circuit Court to
enter the expungement-reversal order into the SJIS in
April 2018, we implicitly held that that order was valid
and that the evidence supported the court’s exercising
its discretion to reverse the expungement order. We
expressly confirm that now.” App.25. This implicit
holding, however, is based upon an abuse of discretion
standard of review that applied to a Writ of Mandamus
proceeding, and not the de novo review required in this
direct appeal.
Indeed, when the Supreme Court of Alabama denied
the Writ and ordered that the June 8, 2016 order be

28
entered in the SJIS system, two judges provided
dissenting opinions. One dissenting Justice wrote, “by
instructing the trial court to enter its June 8, 2016,
order into the SJIS, this Court invades the province of
the trial court to determine whether – and, if so,
when – that order should be made effective.” App.130.
This Justice further explained that the order “remains
within the control of the signer and that signer, the
judge, is free to alter it, postpone its entry, or decide
not to cause it to be entered at all.” App.130.
The appellate courts throughout our nation make
abundantly clear that “[p]arties are entitled to clear
communication from the orders issued by all courts,
including courts of limited jurisdiction…[t]he rights of
litigants and the integrity of our system of justice
depend on a reasonable level of certainty in recording
the final decisions of our courts.” State v. Montoya,
2008-NMSC-043, ¶ 21, 144 N.M. 458, 463-64, 188 P.3d
1209, 1214-15; State v. Lohberger, 2008-NMSC-033,
¶ 34, 144 N.M. 297, 304, 187 P.3d 162, 169. Our
appellate courts have additionally noted that an appeal
has no value unless proper notice of the final order is
clearly expressed and filed with the clerk. Swander
Ditch Landowners’ Ass’n v. Joint Bd. of Huron &
Seneca Cty. Comm’rs, 51 Ohio St. 3d 131, 133, 554
N.E.2d 1324, 1327 (1990); State v. Lohberger, 2008NMSC-033, ¶ 34, 144 N.M. 297, 304, 187 P.3d 162, 169.
A clear, final order is important to the administration
of justice because “uncertainty about whether or when
a final order has been filed may unintentionally forfeit
a party’s right to appellate review.” State v. Lohberger,
2008-NMSC-033, ¶ 25, 144 N.M. 297, 302, 187 P.3d
162, 167.

29
Sadly, this is what tragically unfolded in Petitioner
Newsome’s matter whereas he was unable to engage in
comprehensive appellate review of the whether the
order is void. Petitioner Newsome did file a Writ of
Mandamus to challenge the order, but this was not the
appropriate vehicle to review a final order and the
unnecessary legal maneuver changed the reviewable
standard from de novo to the more deferential standard
of abuse of discretion. This was a clear violation of the
due process of law. Indeed, the Alabama courts have
noted “a writ of mandamus is not a substitute for an
appeal.” Dixon v. City of Mobile, 859 So. 2d 462, 464 n.1
(Ala. Crim. App. 2003).
As a matter of law, Petitioners had a due process
right to de novo review of whether the unfiled order is
void as a matter of law. In relying on its implicit
holding on Petitioner Newsome’s Writ of Mandamus,
the court impermissibly relied on the inappropriate
abuse of discretion standard. Due process does not
allow for Petitioner Newsome to be subject to an
implicit holding on an order which remains unfiled.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.

30
Respectfully submitted,
Alexandra C. Siskopoulos
Counsel of Record
Siskopoulos Law Firm, LLP
33 West 19th Street, 4th Floor
New York, New York 10011
(646) 942-1798
acs@siskolegal.com
Counsel for Petitioners
July 17, 2021

